               Department of Veterans Affairs
               Office of Inspector General



                    Office of Healthcare Inspections

Report No. 13-01351-296



             Healthcare Inspection 


  Alleged Sterile Processing Service 

             Deficiencies 

 VA Puget Sound Health Care System 

         Seattle, Washington 





September 3, 2013

                        Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations:
                    Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
                      Web site: www.va.gov/oig
      Alleged Sterile Processing Service Deficiencies, VA Puget Sound Health Care System, Seattle, WA



                                 Executive Summary 

The VA Office of Inspector General Office of Healthcare Inspections conducted an
inspection to assess the validity of allegations regarding clinical and administrative
operations within the Sterile Processing Service (SPS) at VA Puget Sound Health Care
System (the system) Seattle, WA. The complainant alleged that improper sterilization of
equipment placed patients at harm and that this risk was not disclosed. It was also
alleged that SPS reprocessed single-use devices (SUDs) without approval to do so,
failed to keep standard operating procedures (SOPs) current, did not provide staff
training, and did not maintain accurate staff competencies.

We substantiated that equipment was used in a sterilizer for which its use is not
approved by the Food and Drug Administration; however, we did not substantiate that
this caused the instruments involved to be unsterile or that patients were placed at risk.
We did not substantiate that SPS and system leadership knowingly covered-up and
failed to disclose to physicians and patients processing problems associated with
equipment.

We did not substantiate the allegation that the system reprocessed SUDs without
approval to do so; however, we did find that the system resterilized SUDs. Reviews
conducted by the system and the VHA National Program Office for Sterile Processing
found that while resterilization was neither necessary nor approved, all sterilization
parameters were met.

We did not substantiate that SPS SOPs are not accurate and current. We reviewed
SOPs of select reusable medical equipment items and found them to be current and
consistent with Manufacturer Instructions which is essential to avoid improper
reprocessing. Upon physical inspection we found that SOPs were located within
reprocessing areas and that staff could articulate the location of the SOPs and the
process used to communicate updates. We did not substantiate the allegation that SPS
has not provided sufficient training. We found that training was provided at daily
briefings, weekly training sessions, and through online modules and job mentoring.

We did not substantiate the allegation that SPS staff competency folders might be
inaccurate and include falsified documents. However, we did find deficiencies in the
manner in which the files were organized. Supervisors and staff lacked an efficient way
to verify current competencies.

We recommended that the System Director ensure that SPS has a process in place to
identify SUDs and decrease the risk of SUDs being resterilized and that processes be
strengthened to ensure that SPS staff competency records are well organized and that
managers are able to readily determine the current competence of each employee on
each task.




VA Office of Inspector General                                                                      i
      Alleged Sterile Processing Service Deficiencies, VA Puget Sound Health Care System, Seattle, WA


Comments: The Veterans Integrated Service Network and Facility Directors concurred
with our recommendation(s) and provided an acceptable action plan. (See Appendixes
A and B, pages 10–12 for the Directors’ comments.) We will follow up on the planned
actions until they are completed.




                                                            JOHN D. DAIGH, JR., M.D.
                                                           Assistant Inspector General for
                                                             Healthcare Inspections




VA Office of Inspector General                                                                      ii
        Alleged Sterile Processing Service Deficiencies, VA Puget Sound Health Care System, Seattle, WA



                                            Purpose 

The VA Office of Inspector General (OIG) Office of Healthcare Inspections conducted
an inspection to assess the merit of allegations regarding clinical and administrative
operations within the Sterile Processing Service (SPS) at VA Puget Sound Health Care
System (the system), Seattle, WA. Specifically, the complainant alleged:

        Genesis pans™1 were used in a sterilizer for which their use is not approved by
         the FDA, causing instruments to be unsterile.

        Improperly sterilized equipment might have been used in hundreds of urology
         cases.

    	 SPS and executive leadership knowingly covered-up and failed to notify
       physicians and patients of processing problems associated with the Genesis
       pans.

    	 SUDs are being reprocessed without an FDA permit (“approval”).

    	 Standard Operating Procedures (SOPs) are not accurate and current in SPS.

    	 SPS has not provided sufficient training and staff competency folders may be
       inaccurate and include falsified documents.


                                          Background 

The system is part of Veterans Integrated Service Network (VISN) 20 and includes two
divisions in the Puget Sound region and seven community-based outpatient clinics in
neighboring counties. The system has 474 authorized beds, 283 of which are
operational. The Seattle Division is a tertiary care facility serving as a VISN 20 referral
center for specialty care needs. Services provided at the Seattle division include
inpatient and outpatient medical, surgical, mental health, specialty, long-term care, and
research. The American Lake Division provides outpatient medical, mental health and
specialty clinics, a domiciliary, blind rehabilitation unit, and community living center.
Reusable Medical Equipment (RME) reprocessing is performed at both divisions.

Single-Use Devices

A Single-Use Device (SUD) is a device that is intended for use one time or on a single
patient during a single procedure.2 However, to save costs and reduce medical waste,
the Food and Drug Administration (FDA) has approved a process for reprocessing and

1
 Containers holding items as they go through the sterilization process. 

2
 U. S. Food and Drug Administration,

http://www.fda.gov/MedicalDevices/DeviceRegulationandGuidance/ReprocessingofSingle-
UseDevices/ucm121090.htm, accessed on 5/14/13.


VA Office of Inspector General	                                                                      	2	
       Alleged Sterile Processing Service Deficiencies, VA Puget Sound Health Care System, Seattle, WA


reusing SUDs. This guidance document, Enforcement Priorities for Single-Use Devices
Reprocessed by Third Parties and Hospitals, was released by the FDA in 2000.

The FDA defines a reprocessed SUD as an original device that has previously been
used on a patient and has been subjected to additional processing and manufacturing
for the purpose of an additional single use on a patient. Entities that reprocess SUDs
must be reviewed by the FDA. In order to be on the FDA list of third-party reprocessors
of SUDs, a facility must register with the FDA and adhere to all of the regulatory
requirements applicable to the original equipment manufacturer. Once registration is
complete, internal policies and procedures must be developed to ensure compliance.

RME

RME refers to devices that are designed for use on multiple patients and made of
materials that can withstand repeated reprocessing. These devices must be properly
cleaned3, disinfected4 and/or sterilized between patients to ensure safe use. If these
devices are not adequately reprocessed, they may be contaminated and compromise
patient safety.      RME reprocessing generally involves three steps: (1) initial
decontamination and cleaning at the point of use; (2) thorough cleaning in the
reprocessing area; and (3) low-intermediate-level disinfection, high-level disinfection, or
sterilization, depending on the intended use of the device, its risk of infection
transmission, and the materials from which it is made. Each device has manufacturer
instructions (MI) for use which specify the FDA approved process(es) for sterilization.

Sterilization Process and Monitoring
Sterilization is an act or process used to destroy or eliminate all forms of life, especially
microorganisms. Ensuring the consistency of sterilization practices for medical
equipment requires a comprehensive program that ensures operator competence and
proper methods of cleaning and unwrapping instruments, loading the sterilizer,
operating the sterilizer, and monitoring the entire system.5
Sterilization monitoring is required to assure that medical devices have been adequately
sterilized. Three distinct monitors are part of the total system of sterilization monitoring:
mechanical, chemical, and biological. Used in conjunction with one another, they create
a check and balance for the sterilization process designed to eliminate the potential use
of non-sterile instruments. The system is based on the premise that if sterilization fails
and the malfunction is not detected by the biological indicator, then a chemical indicator
and the functional monitoring built into the sterilizer should detect the malfunction.6




3
  Cleaning usually involves water and detergents or a presoak solution to break down and remove foreign material. 

4
  Disinfection is any process, chemical or physical, that destroys most pathogens (infectious microorganisms). 

5
  CDC, “Guideline for Disinfection and Sterilization in Healthcare Facilities, 2008.”

6
  CDC “Guideline for Disinfection and Sterilization in Healthcare Facilities, 2008.”


VA Office of Inspector General	                                                                                  	3	
       Alleged Sterile Processing Service Deficiencies, VA Puget Sound Health Care System, Seattle, WA


Mechanical Monitors
The critical parameters of mechanical monitoring are time, steam, and temperature.
Sterilization department staff conducts an assessment of the equipment’s temperature
record chart which plots cycle time and temperature to ensure that required parameters
are met.
Sterilizer printouts are verified at the end of each cycle by the technicians. When proper
conditions are not met, the printout will show a cycle failure. Items that were processed
during a cycle that resulted in a failure are not considered sterile and should not be
used for patient care.
Chemical Monitors
Chemical monitors should be used with each package that is sterilized and can be used
to monitor sterilization conditions in the sterilization chamber or from within the load7.
These indicators are designed to detect problems associated with incorrect packaging,
incorrect loading, or sterilization process malfunction. While these indicators establish
that a package has been processed through a sterilization cycle, they do not prove that
sterilization has been achieved.
Biological Monitors
Biological monitoring is generally recognized as the most effective method of monitoring
the sterilization process. Biological indicators function by introducing highly resistant
bacterial spores8 into the sterilization system. If these spores are destroyed, it is
assumed that any other contaminants in the load have also been killed, as these
organisms have lower resistance than the spores and are present in lower numbers.
Biological indicators must be approved by the FDA for use with particular sterilizers.
Used simultaneously, mechanical, chemical, and biological monitoring processes
significantly decrease the risk of non-sterile instruments being used.
Disclosure
Disclosure is the act of making information known. VHA outlines procedures to ensure
consistent processes among VHA facilities in disclosing to patients, or to patients’
personal representatives, the occurrence of adverse events related to the patient’s
clinical care.9 VHA recognizes three types of disclosure: clinical, institutional, and large-
scale. Appropriate disclosure may include any or all types.
An adverse event10 is an untoward incident, diagnostic or therapeutic misadventure,
iatrogenic injury,11 or other occurrence of potential harm directly associated with care or

7
  The tray of medical equipment to be sterilized. 

8
  Spores are reproductive cells produced by fungi and bacteria. 

9
  VHA Handbook 1004.08, Disclosure of Adverse Events to Patients (October 2, 2012).

10
   VHA Handbook 1004.08. 

11
   Iatrogenic injuries are those induced inadvertently by a physician or surgeon or by medical treatment or diagnostic

procedure.


VA Office of Inspector General	                                                                                     	4	
      Alleged Sterile Processing Service Deficiencies, VA Puget Sound Health Care System, Seattle, WA


services provided within the jurisdiction of VHA. VHA facilities are required to have
processes in place to determine whether an occurrence meets the definition of an
adverse event and which incidents need to be considered for a root cause analysis.
Clinical Disclosure
        A clinical disclosure is a process by which the patient’s clinician informs the
        patient or the patient’s personal representative as part of routine clinical care that
        a harmful or potentially harmful adverse event has occurred during the patient’s
        care.12
Institutional Disclosure
        An institutional disclosure is a formal process by which facility leaders together
        with clinicians and others, when appropriate, inform the patient or patient’s
        representative that an adverse event has occurred during the patient’s care that
        resulted in, or is reasonably expected to result in, death or serious injury. The
        patient is also provided specific information about patients’ rights and
        recourses.13
Large-scale Disclosure
        A large-scale disclosure is sometimes referred to as notification. It is a formal
        process by which VHA officials assist with coordinating the notification to multiple
        patients, or their personal representatives, that they may have been affected by
        an adverse event resulting from a systems issue. This process usually includes
        public notification and direct communication to key stakeholders.14

                              Scope and Methodology

We reviewed VHA directives, handbooks, memorandums, and professional manuals.
We also reviewed SOPs and MIs for selected RMEs, VISN briefings, Executive-level
committee minutes, RME Oversight Committee minutes, Infection Control Committee
minutes, IC reviews of SUD and RME related incidents, Clinical Product Review
Committee minutes. Internal and external reviews of the SPS program, SPS staff
training and competency records, and correspondence from VHA National Program
Office for Sterile Processing.

We interviewed SPS managers and staff, Surgery Service managers, the Nurse
Executive, Infectious Disease and IC staff, quality management staff, the RME
coordinator, and logistics and equipment managers. We conducted a site visit at the
Seattle Division April 24-25, 2013, and toured the SPS and Gastroenterology Service
areas.


12
   VHA Handbook 1004.08.
13
   VHA Handbook 1004.08.
14
   VHA Handbook 1004.08.

VA Office of Inspector General	                                                                    	5	
      Alleged Sterile Processing Service Deficiencies, VA Puget Sound Health Care System, Seattle, WA



                                  Inspection Results 

Issue 1: Identification and Disclosure of Potentially Adverse Events

Genesis™ Pan Usage

We substantiated the allegation that Genesis™ pans were used in a sterilizer for which
their use is not approved by the FDA. However, we did not substantiate that this
caused the instruments to be unsterile.

System leadership was aware of this allegation and the use of the Genesis™ pans in a
non-approved sterilizer prior to our review.      Once identified, the practice was
discontinued immediately and SPS staff was educated regarding the incorrect pairing of
equipment. In addition, the system conducted a risk assessment to determine the level
of harm, or potential for harm, to patients.

We found that the facility developed a new process for purchasing medical devices and
equipment. A major component of the issue with the Genesis™ pans was the reliance
of SPS management on the vendor rather than internally validating the MIs. The newly
implemented process for equipment purchasing ensures alignment between the
equipment to be purchased and the ability to use it. The CPRC is responsible for
vetting the equipment prior to purchase. The CPRC routes requests through SPS, the
RME Oversight Committee, and other appropriate groups and individuals to ensure that
it can be properly cleaned with current equipment, that there is sufficient space, and
other related issues. The CPRC began meeting and facilitating this process in April
2012.

Usage of Improperly Sterilized Equipment in Urology Cases

We did not substantiate that improperly sterilized equipment might have been used in
hundreds of urology cases.

We found that the system’s SPS consistently uses all three monitors available –
mechanical, chemical (internal and external), and biological. In the case of the
Genesis™ pans, the system was able to demonstrate that the equipment from any
failed sterilization cycles was immediately pulled and not used in surgery.

SPS and Leadership Failure to Disclose

We did not substantiate that SPS and facility leadership knowingly covered-up and
failed to disclose to physicians and patients processing problems associated with the
Genesis™ pans.

VHA requires that for the use and reprocessing of RME, the system Director ensure
there is an organizational structure that includes an interdisciplinary approach to
monitoring the compliance with the established processes and documents outcomes


VA Office of Inspector General	                                                                    	6	
         Alleged Sterile Processing Service Deficiencies, VA Puget Sound Health Care System, Seattle, WA


related to the defined processes.15 This approach should include participation by the
Chief of SPS, a representative of Quality and Risk Management, a Nursing Service
representative, an IC Professional, a Patient Safety Manager, and a representative of
Bio-Medical Engineering.

VHA provides clear guidelines as to the RME-related reports that are required to go to
the Executive Committee of the Medical Staff.16 Those reports include but are not
limited to: validation of initial and on-going competency of staff, results of compliance
with established SOPs, requirements of infection prevention and control monitoring, and
risk management related activities.

During our review we found that the system established appropriate RME oversight
through multidisciplinary representation on their RME Oversight Committee. While this
Committee relies on input from a variety of sources, it also provides routine reports on
various RME topics and issues to the Clinical Executive Board17, IC Committee, and
other leadership groups as needed. We also identified discussions at many of these
committees related to several RME-related inspections, site visits, and internal
reviews/reports.

Utilizing the structure that was in place, the system appropriately managed the
Genesis™ pan incident once it was identified. Upon identification, the system pulled
together appropriate subject matter experts in order to conduct a risk assessment. A
thorough review was conducted, system issues identified, and action plans developed.
Through the risk analysis process, it was determined that the occurrence did not rise to
the level of an adverse event since the SPS staff had utilized the appropriate monitoring
techniques and no equipment from any failed cycles had been used in surgery. It was
determined that the events did not present any harm or potential harm to patients.
Therefore, no disclosure was needed. System leadership was involved throughout the
process and consulted with the VISN in making this determination.

Issue 2: Reprocessing of SUDs

We did not substantiate the allegation that the system reprocessed SUDs without a FDA
permit (“approval”) to do so; however, we did find that the system resterilized SUDs.

We found that the following three types of SUDs had been resterilized rather than
reprocessed because the items in question were sterile and had not been used prior to
resterilization. Once used, these items were disposed of. These SUDs were:

         Medtronic Clearview Blower/Mister tubing #22150
         Conmed Sternal Saw Blade #5059-532
         Medicon #10 Blade BS2982

15
   VHA Directive 2009-004, Use and Reprocessing of Reusable Medical Equipment (RME) in Veterans Health

Administration Facilities (February 9, 2009). 

16
   VHA Directive 2009-004. 

17
   The CEB is the Executive Committee of the Medical Staff at VAPSHCS. 


VA Office of Inspector General	                                                                       7	
      Alleged Sterile Processing Service Deficiencies, VA Puget Sound Health Care System, Seattle, WA




The system determined that while resterilization was neither necessary nor approved,
all sterilization parameters were met and therefore, the infection risk was similar to any
steam sterilized surgical instrument. Additionally, the VHA NPOSP conducted a review
which had similar findings.
Issue 3: Management of SOPs
We did not substantiate the allegation that SPS SOPs are not accurate and current.
An SOP is a written document containing the specific steps required to complete a task.
SOPs are important references for staff who reprocess RME. VHA requires that SOPs
be current and consistent with MIs.18 It is essential that SOPs mirror MIs in order to
avoid improper reprocessing which could result in transmission of pathogens to patients
and affect the functionality of the RME item. We reviewed SOPs of select RME items
and found they were current and consistent with MIs. While this had been an area of
weakness, at the time of our review, the system had a process in place, including
updates provided by the VHA NPOSP Update Team, to ensure that modifications to MIs
were received and communicated to staff.
VHA requires that SOPs be located within reprocessing areas for easy reference by
employees.19 We conducted physical inspections of the SPS and Gastroenterology
Service procedure areas and found current SOPs located within the reprocessing areas.
Staff were able to articulate the locations of SOPs and the process used to keep them
current.

Issue 4: Staff Training and Competencies

VHA requires that staff involved in the use and reprocessing of RME have documented
training on all aspects of equipment use leading to initial competency and validation of
all competencies on an annual basis.20 SPS is to have a mechanism in place to ensure
that supervisors and staff know the status of their competencies. Staff should not be
allowed to use equipment for which their competency has not yet been established or
has expired.

We did not substantiate the allegation that SPS supervisors had not provided sufficient
training. We found that training was provided at daily briefings and weekly training
sessions as well as through the use of online modules and on-the-job mentoring. Staff
reported being well trained.

We did not substantiate the allegation that SPS staff competency folders may be
inaccurate and include falsified documents. However, we found deficiencies in the
manner in which the files were organized. During our review of staff competency
records, we found documentation of current staff competencies. While the information

18
   VHA Directive 2009-031, Improving Safety in the Use of Reusable Medical Equipment through Standardization 

of Organizational Structure and Reprocessing Requirements (June 26, 2009). 

19
   VHA Directive 2009-031. 

20
   VHA Directive 2009-004. 


VA Office of Inspector General	                                                                           	8	
      Alleged Sterile Processing Service Deficiencies, VA Puget Sound Health Care System, Seattle, WA


for each record was accurate, we found the approach used to organize staff files was
ineffective and chaotic. Supervisors and staff lacked an efficient way to verify current
competencies, putting staff at risk of using equipment for which their documented
competence had expired.

                                        Conclusions

We concluded that the system generally complied with clinical and administrative
processes within SPS at the system. We found areas needing improvement in the
management of SUDs and the maintenance and tracking of SPS staff competency files.

                                  Recommendations

1. We recommended that the System Director ensure that Sterile Processing Service
has a process in place to identify single-use devices and mitigate the risk of single-use
devices being resterilized.

2. We recommended that the System Director ensure that processes be strengthened
to ensure that Sterile Processing Service staff competency records are well organized
and that managers are able to readily determine the current competence of each person
on each task.




VA Office of Inspector General	                                                                    	9	
      Alleged Sterile Processing Service Deficiencies, VA Puget Sound Health Care System, Seattle, WA
                                                                                         Appendix A
                            VISN Director Comments

               Department of
               Veterans Affairs                                     Memorandum

   Date:       July 23, 2013

   From:       Director, Northwest Network (10N20)

   Subject: Healthcare Inspection – Alleged Sterile Processing
            Services Deficiencies, Puget Sound VA Health Care
            System, Seattle, WA

   To:         Director, Seattle Office of Healthcare Inspections (54SE)

           1. Thank you for the opportunity to provide a status report on
              follow-up to the findings from the Alleged Sterile Processing
              Services Deficiencies of the VA Puget Sound Health Care
              System, Seattle, Washington.

           2. Attached please find the facility concurrences and responses
              to each of the findings from the review.

           3. If you have additional questions or need further information,
              please contact Susan Gilbert, Survey Coordinator, VISN 20
              at (360) 567- 4678.



               (original signed by:)

               Lawrence H. Carroll




VA Office of Inspector General                                                                    10
      Alleged Sterile Processing Service Deficiencies, VA Puget Sound Health Care System, Seattle, WA
                                                                                         Appendix B
                         System Director Comments

               Department of
               Veterans Affairs                                     Memorandum

   Date:       July 19, 2013

   From:       Health Care System Director, VA Puget Sound Health Care
               System (663/00)

   Subject: Healthcare Inspection – Alleged Sterile Processing
            Services Deficiencies, VA Puget Sound Health Care
            System, Seattle, WA

   To:         Director, Northwest Network (10N20)

           1. Thank 	you for the opportunity to respond to the
              recommendations from OIG Hotline visit at VA Puget Sound
              Health Care System, Seattle, Washington.

           2. Attached please find the facility responses to each of the
              findings from the review.

           3. If you have additional questions or need further information,
              please contact Jane Penny, Director, Quality Improvement at
              (206) 764-5522 or via email at Jane.Penny@va.gov.



           (original signed by:)

           Michael J. Murphy, FACHE




           Attachment:

                   1. Response – Healthcare Inspection – Alleged Sterile
                   Processing Services Deficiencies, VA Puget Sound
                   Health Care System, Seattle, WA




VA Office of Inspector General                                                                    11
      Alleged Sterile Processing Service Deficiencies, VA Puget Sound Health Care System, Seattle, WA



                         Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that the System Director ensure that Sterile
Processing Service has a process in place to identify single-use devices and mitigate
the risk of single-use devices being resterilized.

Concur

Target date for completion: September 1, 2013

Facility response: Based on the preliminary discussion with the OIG team, facility
leadership tasked Sterile Processing Service (SPS) to conduct an inventory of
instrument trays and peel packed instrumentation to establish a baseline of single use
devices.     Leadership also tasked SPS with implementation of training for the
identification and proper deployment of single use devices.

The single use device inventory, staff training, and revised standard operating
procedures will be completed by September 1, 2013.

Recommendation 2. We recommended that the System Director ensure that
processes be strengthened to ensure that Sterile Processing Service staff competency
records are well organized and that managers are able to readily determine the current
competence of each person on each task.

Concur

Target date for completion: September 1, 2013

Facility response: Based on the preliminary discussion with the OIG team, facility
leadership tasked Sterile Processing Service to develop a competency-tracking tool
designed to identify employee specific requirements, completed July 18, 2013.




VA Office of Inspector General	                                                                   	12	
      Alleged Sterile Processing Service Deficiencies, VA Puget Sound Health Care System, Seattle, WA
                                                                                        Appendix C

                 OIG Contact and Staff Acknowledgments
Contact                  For more information about this report, please contact the OIG at
                         (202) 461-4720.
Contributors             Susan Tostenrude, MS, Team Leader
                         Sarah Lutter, RN, JD
                         Karen Moore, RNC, MSHA
                         Sami O’Neill, MA
                         Noel Rees, MPA
                         George Wesley, MD
                         Yohannes Debesai, MBA, Program Analyst
                         Marc Lainhart, BS, Management and Program Analyst




VA Office of Inspector General	                                                                   	13	
      Alleged Sterile Processing Service Deficiencies, VA Puget Sound Health Care System, Seattle, WA
                                                                                         Appendix E



                                  Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, Northwest Network (10N20)
Director, VA Puget Sound Health Care System (663/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
Senate Committee on Homeland Security and Governmental Affairs
Related Agencies
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Maria Cantwell, Patty Murray
U.S. House of Representatives: Susan DelBene, Doc Hastings, Denny Heck, Jaime
Herrera Beutler, Derek Kilmer, Rick Larson, Jim McDermott, Cathy McMorris Rodgers,
David G. Reichert, Adam Smith



This report is available on our web site at www.va.gov/oig




VA Office of Inspector General	                                                                   	14	
